                           United States Department of Agriculture
                                 Office of Inspector General
                                   Washington, D.C. 20250


DATE:          December 17, 2013

AUDIT
NUMBER:        50401-0006-11

TO:            Jon M. Holladay
               Deputy Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathy Donaldson
               Audit Liaison Officer
               Management Control and Audit Team

SUBJECT:       Department of Agriculture’s Closing Package Financial Statements for
               Fiscal Years 2013 and 2012


Report on the Closing Package Financial Statements
We have audited the accompanying Closing Package Financial Statement Report of the
Department of Agriculture, which comprise the Closing Package Financial Statement Report -
Balance Sheet as of September 30, 2013 and 2012, and the related Closing Package Financial
Statement Reports - Statement of Net Cost and Statement of Changes in Net Position for the
years then ended, and the accompanying Financial Report Notes Report (except for the
information in the Financial Report Notes Report entitled, “Threshold”) for the years then ended;
the accompanying Trading Partner Summary Note Report – Balance Sheet as of September 30,
2013 and 2012; and the related Trading Partner Summary Note Report – Statement of Net Cost
and Statement of Changes in Net Position for the years then ended (hereinafter referred to as the
closing package financial statements).

Management’s Responsibility for the Closing Package Financial Statements

Management is responsible for the preparation and fair presentation of these closing package
financial statements in accordance with accounting principles generally accepted in the
United States of America; this includes the design, implementation, and maintenance of internal
control relevant to the preparation and fair presentation of the closing package financial
statements that are free from material misstatement, whether due to fraud or error.

Auditor’s Responsibility

Our responsibility is to express an opinion on these closing package financial statements based
on our audits. We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained
in Government Auditing Standards, issued by the Comptroller General of the United States; and
Jon M. Holladay                                                                                  2


Office of Management and Budget (OMB) Bulletin 14-02, Audit Requirements for Federal
Financial Statements. Those standards and OMB Bulletin 14-02 require that we plan and
perform the audit to obtain reasonable assurance about whether the closing package financial
statements are free of material misstatement. An audit involves performing procedures to obtain
audit evidence about the amounts and disclosures in the closing package financial statements.
The procedures selected depend on the auditor’s judgment, including the assessment of the risks
of material misstatement of the closing package financial statements, whether due to fraud or
error. In making those risk assessments, the auditor considers internal control relevant to the
entity’s preparation and fair presentation of the closing package financial statements in order to
design audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of the agency’s internal control. Accordingly, we
express no such opinion. An audit also includes evaluating the appropriateness of accounting
policies used and the reasonableness of significant estimates made by management, as well as
evaluating the overall presentation of the closing package financial statements. We believe that
the audit evidence we have obtained is sufficient and appropriate to provide a basis for our audit
opinion.

Opinion on the Closing Package Financial Statements

In our opinion, the closing package financial statements referred to above present fairly, in all
material respects, the financial position of the Department as of September 30, 2013 and 2012, as
well as its net costs and changes in net position for the years then ended in accordance with
accounting principles generally accepted in the United States of America.

Emphasis of Matter

Exhibit A describes that the accompanying closing package financial statements were prepared
to comply with the requirements of the United States Department of the Treasury’s Treasury
Financial Manual (TFM) Volume I, Part 2, Chapter 4700 for the purpose of providing financial
information to the United States Department of the Treasury and the United States Government
Accountability Office to use in preparing and auditing the “Financial Report of the United States
Government,” and are not intended to be a complete presentation of the consolidated balance
sheets of the Department as of September 30, 2013 and 2012, and related consolidated
statements of net cost and changes in net position, and combined statements of budgetary
resources (hereinafter referred to as “general-purpose financial statements”) for the years then
ended. Our opinion is not modified with respect to this matter.

Other Matters

Opinion on the General-Purpose Financial Statements
We have audited, in accordance with auditing standards generally accepted in the United States
of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB Bulletin 14-02, the
general-purpose financial statements of the Department as of September 30, 2013 and 2012, and
Jon M. Holladay                                                                                   3


our report thereon, dated December 13, 2013, expressed an unmodified opinion on those
financial statements.


Required Supplementary Information and Required Supplementary Stewardship
Information

United States of America generally accepted accounting principles require that the information in
Other Data Reports 1, 8, 9, and 14, except for the information included in the Other Text Data of
Other Data Report 1 and the information in the Other Data Report 8, entitled “Threshold,”
(which are discussed below) be presented to supplement the basic financial statements. Such
information, although not a part of the basic financial statements, is required by the Federal
Accounting Standards Advisory Board, who considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or
historical context. We have applied certain limited procedures to the Required Supplementary
Information in accordance with auditing standards generally accepted in the United States of
America, which consisted of inquiries of management about the methods of preparing the
information and comparing the information for consistency with management’s responses to our
inquiries; the closing package financial statements; and other knowledge we obtained during our
audits of the closing package financial statements. We do not express an opinion or provide any
assurance on the information because the limited procedures do not provide us with sufficient
evidence to express an opinion or provide any assurance.

Management has omitted the Management’s Discussion and Analysis and the combined
Statement of Budgetary Resources that the United States of America generally accepted
accounting principles require to be presented to supplement the closing package financial
statements. Such missing information, although not part of the closing package financial
statements, is required by the Federal Accounting Standards Advisory Board, who considers it to
be an essential part of financial reporting for placing the general-purpose financial statements in
an appropriate operational, economic, or historical context. Our opinion on the closing package
financial statements is not affected by this missing information.

Other Information

Our audit was conducted for the purpose of forming an opinion on the closing package financial
statements as a whole. The information in the sections included in the Other Data Reports 15
and 16; the information included in the Other Text Data of Other Data Report 1; the information
entitled “Threshold” in Other Data Report 8, and the information in the sections entitled
“Threshold” in Financial Report Notes Report 2, 3, 4A, 4B, 6, 12, 13, 14, 15, and 19; the
information in the Closing Package Line Reclassification Summary Report – Balance Sheet; and
the information in the Closing Package Line Reclassification Summary Reports – Statement of
Net Cost and Statement of Changes in Net Position are presented for purposes of additional
analysis in accordance with TFM Chapter 4700 and are not a required part of the closing package
financial statements. Such information has not been subjected to the auditing procedures applied
in the audits of the closing package financial statements and, accordingly, we do not express an
opinion or provide any assurances on it.
Jon M. Holladay                                                                                    4


Restriction on the Use of the Report on the Closing Package Financial Statements

This report is intended solely for the information and use of the management of the Department,
Treasury, OMB, and Government Accountability Office in connection with the preparation and
audit of the “Financial Report of the United States Government”, and is not intended to be and
should not be used by anyone other than these specified parties.

Other Reporting Required by Government Auditing Standards
In accordance with government auditing standards and OMB Bulletin 14-02, we have also issued
reports, dated December 13, 2013, on our consideration of the Department’s internal control over
financial reporting and the results of our tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements and other matters that are required to be reported
under government auditing standards. Those reports are an integral part of an audit performed in
accordance with government auditing standards and OMB Bulletin 14-02 in considering the
Department’s internal control and compliance, and should be read in conjunction with this report
in considering the results of our audits of the closing package financial statements.

In our fiscal year 2013 audit of the general-purpose financial statements of the Department, we
noted the following material weaknesses, significant deficiencies, and/or compliance and other
matters. There were two material weaknesses noted: (1) Improvements Needed in Overall
Financial Management and (2) Improvements Needed in Overall Information Security Program;
and two significant deficiencies: (1) Controls Over Financial Reporting Can Be Strengthened
and (2) Information Technology Controls Can Be Strengthened in Two Financial Systems. We
also noted two instances of noncompliance with laws and regulations: (1) Lack of Substantial
Compliance with Federal Financial Management Improvement Act of 1996 Requirements and
(2) an Anti-Deficiency Act Violation.

Internal Control Over Financial Reporting Specific to the Closing Package Financial
Statements

In planning and performing our audit of the closing package financial statements as of and for
the year ended September 30, 2013, we also considered the Department’s internal control over
financial reporting (internal control) to determine the audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the closing package financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the
Department’s internal control. Accordingly, we do not express an opinion on the effectiveness
of the Department’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency or a combination of deficiencies in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. A significant deficiency is a deficiency, or
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.
Jon M. Holladay                                                                                       5


Our consideration of internal control for the closing package financial statements was for the
limited purpose described in the first paragraph of this section and was not designed to identify
all deficiencies in internal control that might be material weaknesses or significant deficiencies.
Given these limitations, during our audit we did not identify any deficiencies in internal control
that we consider to be material weaknesses. However, material weaknesses may exist that were
not identified.

Compliance and Other Matters Specific to the Closing Package Financial Statements

As part of obtaining reasonable assurance about whether the Department’s closing package
financial statements are free from material misstatement, we performed tests of its compliance
with certain provisions of TFM Chapter 4700. However, providing an opinion on compliance
with those provisions was not an objective of our audit of the closing package financial
statements, and, accordingly, we do not express such an opinion. The results of our tests of
compliance with TFM Chapter 4700 disclosed no instances of noncompliance or other matters
that are required to be reported herein under government auditing standards and OMB
Bulletin 14-02.

The Department’s Response

There were no findings or recommendations included herein; therefore, no corrective actions are
necessary.

Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication provided in the Other Reporting Required by government
auditing standards section is solely to describe the scope of our testing of internal control and
compliance and the results of that testing, and not to provide an opinion on the effectiveness of
the agency’s internal control or on compliance. This communication is an integral part of an
audit performed in accordance with United States of America generally accepted government
auditing standards in considering internal control and compliance with provisions of laws,
regulations, contracts, and grant agreements that have a material effect on the closing package
financial statements. Accordingly, this communication is not suitable for any other purpose.

If you have any questions concerning the report, please contact me at (202) 720-6945 or have a
member of your staff contact Ernest M. Hayashi, Director, Farm, Trade, Research, and
Environment Division at (202) 720-2887.




Gil H. Harden
Assistant Inspector General for Audit

December 17, 2013
                                                                                      Exhibit A
                                                                                      Page 1 of 1

REQUIRED TFM NOTE TO THE CLOSING PACKAGE FINANCIAL STATEMENTS

Notes to the Closing Package Financial Statements

Note 1 – Closing Package Financial Statement Requirements

The Budget and Accounting Procedures Act of 1950 allows the Secretary of the Treasury to
stipulate the format and requirements of executive agencies to furnish financial and operational
information to the President and the Congress to comply with the Government Management
Reform Act of 1994 (GMRA) (Public Law 103-356), which requires the Secretary of the
Treasury to prepare and submit annual audited financial statements of the executive branch. The
Secretary of the Treasury developed guidance in the United States Department of Treasury’s
TFM Volume I, Part 2, Chapter 4700 to provide agencies with instructions to meet the
requirements of GMRA. The TFM Chapter 4700 requires agencies to:

       1. Reclassify all line items and amounts on the comparative audited consolidated,
          department-level balance sheets, statement of net cost, and statement of changes in
          net position, to the closing package financial statements;

       2. List closing package financial statement line item amounts identified as Federal by
          trading partner and amount;

       3. Report notes information that is based on the Reclassified Balance Sheet line items
          and other notes information required to meet Federal Accounting Standards Advisory
          Board (FASAB) standards; and

       4. Report other data information that is not based on the Reclassified Balance Sheet line
          items and other data noted information required to meet FASAB standards.
